Mayer Brown LLP
1999 K Street, N.W.
Washington, D.C. 20006-1101

February 5, 2021

Main Tel +1 202 263 3000
Main Fax +1 202 263 3300
www.mayerbrown.com

Charles Rothfeld

Scott S. Harris
Clerk
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Direct Tel +1 202 263 3233
Direct Fax +1 202 263 5233
crothfeld@mayerbrown.com

No. 20-520, American Athletic Conference v.
Alston

Dear Mr. Harris:
Petitioners hereby consent to the filing of any brief amicus curiae in the abovecaptioned case, in support of either party or neither party, filed within the time
allowed by this Court’s rules.
Sincerely,
[s]
Charles Rothfeld

Mayer Brown LLP operates in combination with other Mayer Brown entities with offices in Europe and Asia
and is associated with Tauil & Chequer Advogados, a Brazilian law partnership.

